<html>
<title> - DISRUPTER SERIES: QUANTUM COMPUTING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                  DISRUPTER SERIES: QUANTUM COMPUTING

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2018

                               __________

                           Serial No. 115-131






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
33-124                    WASHINGTON : 2019                 





























                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
                                       Ranking Member
GREGG HARPER, Mississippi            BEN RAY LUJAN, New Mexico
  Vice Chairman                      YVETTE D. CLARKE, New York
FRED UPTON, Michigan                 TONY CARDENAS, California
MICHAEL C. BURGESS, Texas            DEBBIE DINGELL, Michigan
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
DAVID B. McKINLEY, West Virgina      JOSEPH P. KENNEDY, III, 
ADAM KINZINGER, Illinois                 Massachusetts
GUS M. BILIRAKIS, Florida            GENE GREEN, Texas
LARRY BUCSHON, Indiana               FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     3
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    51
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    52

                               Witnesses

Matthew Putman, Founder and CEO, Nanotronics.....................     5
    Prepared statement...........................................     7
Christopher Monroe, Chief Scientist and Founder, IonQ, Professor 
  of Physics, University of Maryland.............................    10
    Prepared statement...........................................    12
Diana Franklin, Professor, University of Chicago.................    24
    Prepared statement...........................................    26
Michael Brett, CEO, QxBranch.....................................    32
    Prepared statement...........................................    34

 
                  DISRUPTER SERIES: QUANTUM COMPUTING

                              ----------                              


                        WEDNESDAY, MAY 18, 2018

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:16 a.m., in 
room 2322, Rayburn House Office Building, Hon. Robert Latta, 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Lance, Guthrie, McKinley, 
Kinzinger, Bilirakis, Bucshon, Walters, Costello, Schakowsky, 
Welch, Kennedy, and Green.
    Staff Present: Mike Bloomquist Staff Director; Margaret 
Tucker Fogarty, Staff Assistant; Melissa Froelich, Chief 
Counsel, Digital Commerce and Consumer Protection; Adam Fromm, 
Director of Outreach and Coalitions; Ali Fulling, Legislative 
Clerk, O&I, Digital Commerce and Consumer Protection; Elena 
Hernandez, Press Secretary; Paul Jackson, Professional Staff, 
Digital Commerce and Consumer Protection; Bijan Koohmaraie, 
Counsel, Digital Commerce and Consumer Protection; Peter 
Spencer, Senior Professional Staff Member, Energy; Andy Zach, 
Senior Professional Staff Member, Environment; Greg Zerzan, 
Counsel, Digital Commerce and Consumer Protection; Michelle 
Ash, Minority Chief Counsel, Digital Commerce and Consumer 
Protection; Jeff Carroll, Minority Staff Director; Caroline 
Paris-Behr, Minority Policy Analyst; and Michelle Rusk, 
Minority FTC Detailee.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Good morning. And again, I would like to welcome 
you all to the Subcommittee on Digital Commerce and Consumer 
Protection here on Energy and Commerce. As I mentioned, we have 
another subcommittee that is running right now, so we will have 
members coming back from first floor, upstairs, during the 
committee from one to the other. But again, I do thank you all 
for being here today.
    And I will recognize myself for my 5-minute opening 
statement. And again, welcome to the subcommittee in today's 
disruptor series hearing examining quantum computing. We 
continue our disrupter series as we examine emerging technology 
supporting U.S. innovation and jobs. This morning, we are 
discussing the revolutionary technology known as quantum 
computing. This involves harnessing the power of physics at its 
most basic level. Unlike the computers we are familiar with we 
use today, a quantum computer holds the potential to be faster 
and more powerful. This innovation is expected to change every 
industry and make problems that are impossible to solve today, 
something that can be solved in a matter of days or weeks.
    Efforts to develop a commercially available and practical 
quantum computer are being pursued around the world. Because of 
the tremendous costs involved in developing a suitable 
environment for a quantum computer to operate, many of these 
efforts involve government support, both the European Union and 
China have pledged, or already have spent billions to develop a 
quantum computer.
    In the United States, development of quantum computers is 
proceeding at the academic, governmental, and private sectors. 
In addition to the larger and familiar technology companies, 
smaller startups are also leading efforts in this area. We are 
fortunate to have one of these startups, IonQ, to testify 
today.
    Although a quantum computer holds tremendous potential to 
solve previously noncomputable problems, there are skeptics who 
question whether it will be possible to ever develop such 
technology. We look forward to our witnesses giving us their 
thoughts on this question.
    On the other hand, some fear that the threats such a 
computer would pose to the traditional computing model, 
especially when it comes to encryption and data security. Some 
fear that a quantum computer would make it nearly impossible to 
keep future computers secure. Data security and consumer 
privacy are key concerns of this committee.
    We also look forward to our witnesses addressing this issue 
as well. Quantum computers hold tremendous potential to help 
solve problems involving the discovery of new drugs, developing 
more efficient supply chains and logistics operations, 
searching massive volumes of data, and developing artificial 
intelligence.
    Whichever nation first develops a practical quantum 
computer will have a tremendous advantage over its foreign 
peers. We hope our witnesses will help us examine the state of 
the race to develop a quantum computer, and how the United 
States is doing in that race. This is obviously a very dense 
subject. We also understand there are several other areas under 
development leveraging the principle of quantum mechanics. Our 
goal today is simple: to develop a better understanding of the 
potential of quantum computers, the obstacles to developing 
this technology, and what policymakers should be doing to 
remove barriers and to help spur innovation, competition, and 
ensure a strong and prepared workforce for future jobs.
    As we explore this topic today, I would, again, like to 
thank our witnesses for coming to share their expertise on this 
very complicated and revolutionary technology. I again 
appreciate you all being here today.
    And at this time, I will yield back my time and recognize 
the gentlelady from Illinois, the ranking member of the 
subcommittee, for 5 minutes.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good Morning. Welcome to the Digital Commerce and Consumer 
Protection Subcommittee, and today's Disrupter Series hearing 
examining quantum computing. We continue our Disrupter Series 
as we examine emerging technologies supporting U.S. innovation 
and jobs.
    This morning we are discussing the revolutionary technology 
known as quantum computing. This involves harnessing the power 
of physics at its most basic level. Unlike the computers we are 
familiar with and use today, a quantum computer holds the 
potential to be faster and more powerful. This innovation is 
expected to change every industry and make problems that are 
impossible to solve today something that can be solved in a 
matter of days or weeks.
    Efforts to develop a commercially available and practical 
quantum computer are being pursued around the world. Because of 
the tremendous costs involved in developing a suitable 
environment for a quantum computer to operate, many of these 
efforts involve government support. Both the European Union and 
China have pledged or already spent billions to develop a 
quantum computer.
    In the United States, development of a quantum computer is 
proceeding at the academic, governmental and private sectors. 
In addition to larger and familiar technology companies, 
smaller start-ups are also leading efforts in this area. We are 
fortunate to have one of these start-ups, Ion-Q, to testify 
today.
    Although a quantum computer holds tremendous potential to 
solve previously non-computable problems, there are skeptics 
who question whether it will be possible to ever develop such 
technology. We look forward to our witnesses giving us their 
thoughts on this question.
    On the other hand, some fear the threat such a computer 
would pose to the traditional computing model. Especially when 
it comes to encryption and data security, some fear that a 
quantum computer would make it nearly impossible to keep future 
computers secure. Data security and consumer privacy are key 
concerns of this Committee. We also look forward to our 
witnesses addressing this issue as well.
    Quantum computers hold tremendous potential to help solve 
problems involving the discovery of new drugs, developing more 
efficient supply chains and logistics operations, searching 
massive volumes of data, and developing artificial 
intelligence. Whichever nation first develops a practical 
quantum computer will have a tremendous advantage over its 
foreign peers. We hope our witnesses will help us examine the 
state of the race to develop a quantum computer, and state how 
the U.S is doing.
    This is obviously a very dense subject. We also understand 
there are several other areas under development leveraging the 
principle of quantum mechanics. Our goal today is simple: to 
develop a better understanding of the potential of quantum 
computers; the obstacles to developing this technology; and, 
what policymakers should be doing to remove barriers and help 
spur innovation, competition, and ensure a strong and prepared 
workforce for future jobs.
    As we explore this topic today, I would like to again thank 
our witnesses for traveling to DC and sharing their expertise 
with us as we examine this complicated and revolutionary 
technology. Thank you.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Well, I want to thank you, Mr. Chairman. We 
continue our disrupter series with the exploration of quantum 
computing. I want to congratulate all of you for being so 
smart. Dr. Franklin, I was just told I think it was your mother 
and I graduated from the University of Illinois about the same 
time. This was a time before we knew anything about computers 
really, it was just beginning. And here you are today, the next 
generation leading us into the future. So I appreciate all of 
you being here today.
    This technology, I understand, is still in the research 
phase, but the potential applications are tremendous, from 
healthcare to energy efficiency and everything in between. 
Given this potential, global competitors from the European 
Union to China are rushing to invest in quantum computing. The 
U.S. must make strategic investments if it wants to stay ahead. 
And those investments really start with STEM education. We must 
encourage students, including young women and students of color 
to pursue interests in computer science and physics. Fostering 
curiosity today prepares young minds to become great innovator 
of tomorrow.
    As a former teacher myself, I strongly believe that our 
future economic success depends on investing in our children's 
education. Our research universities are leading the way on 
quantum computing. Public investment is crucial to develop 
technology until it can be profitable, possibly deployed in the 
private sector. However, the Federal Government has so far 
failed to provide robust reliable investments in quantum 
computing. The lack of investment in STEM education and 
research speaks to the misguided priorities of this Republican 
Congress. While wealthy shareholders get most of the gains from 
a $2 trillion Republican tax bill, Congress is underinvesting 
in students and research institutions. We fund tax cuts for the 
rich at the expense of our future prosperity.
    Now that Congress has passed a budget agreement, we have 
the chance to make some of the investments that our country so 
desperately needs. But instead of embracing the opportunity to 
advance bipartisan appropriations bills, the Republican 
majority plans to bring up a rescission bill to pull back 
funding for children's health insurance programs and other 
programs. And today, we will be voting on a bill to literally 
take food out of the mouths of families.
    We need to get our priorities straight. The U.S. can be a 
global leader in quantum computing and other groundbreaking 
technologies, but only if we prioritize investment for our 
future over tax cuts for the wealthy.
    I look forward to hearing from our panel about the promise 
of quantum computing. I will try my best to follow what you are 
telling me and the challenges that we face in developing this 
technology. I am especially proud to welcome Professor Diana 
Franklin from the University of Chicago. The University of 
Chicago is one of the leaders in quantum computing research, 
and I am eager to hear more about this work.
    So thank you, chairman Latta, and I yield back.
    Mr. Latta. Well, thank you very much. The gentlelady yields 
back. The chairman of the full committee has not made it in 
yet. Is there any one on the Republican side wishing to claim 
his time? If not, at this time that will conclude the member's 
opening statements. And to get to the real meat of the issue 
today that we want to hear about. And I won't tell you how long 
ago, Madam Ranker, how long--when I took computer science in 
college, I probably shouldn't say this, we used punch cards and 
teletype machines. It was a bad Saturday morning, we went back 
to the computer science department, and you were expecting 
about that much and came back with that much, and you knew you 
had made a mistake. But I want to thank our witnesses for being 
here with us today and we are really looking forward to your 
testimony today.
    And our witnesses will have an opportunity to make 5-minute 
opening statements. And our witnesses today are Dr. Matthew 
Putman, Founder and CEO of Nanotronics; Dr. Christopher Monroe, 
Chief Scientist and Founder of IonQ, and Professor of Physics 
at the University Maryland; Dr. Diana Franklin, Professor and 
Director of Computer Science at the University of Chicago; and 
Mr. Michael Brett, CEO of QxBranch. And so again, we appreciate 
you being here today. And Dr. Putman, you are recognized for 5 
minutes for your opening statement. If you would just press 
that microphone and pull it close to you and we will get 
started.

  STATEMENTS OF MATTHEW PUTMAN, FOUNDER AND CEO, NANOTRONICS; 
    CHRISTOPHER MONROE, CHIEF SCIENTIST AND FOUNDER, IONQ, 
 PROFESSOR OF PHYSICS, UNIVERSITY OF MARYLAND; DIANA FRANKLIN, 
   PROFESSOR, UNIVERSITY OF CHICAGO; AND MICHAEL BRETT, CEO, 
                            QXBRANCH

                  STATEMENT OF MATTHEW PUTMAN

    Mr. Putman. Thank you so much, Chairman Latta, 
Congresswomen and Congressmen.
    Nanotronics does not make quantum computers. We are the 
enablers of technologists and companies that with us strive to 
revolutionize the way information can be transformed. We have 
provided some of the world's largest companies and smaller 
entrepreneurial innovators with the tools of modern computation 
and imaging. We work with those that build the most advanced 
materials in microelectronics. Nanotronics achieved this in the 
only way we see feasible for the continued exponential 
progression of technology, which is through artificially 
intelligent factories.
    Quantum computing not only promises to break the barriers 
of encryption, it also breaks some fundamental barriers to 
human progress. Many of our greatest achievements have been 
characterized in terms of competition and races. Often, a 
technological race appears to be a war of ideologies or of 
business dominance. With quantum computing, there is an even 
greater battle, the fight against physical scarcity.
    There are three areas that we must work together on to win, 
not only for our nation, but for humanity, agriculture, new 
fertilizers can feed the increasing population of the world 
while maintaining diversity of crops, drug discovery by being 
able to simulate and produce molecules faster and with greater 
precision than are possible by traditional means. This will not 
only lead to cures for diseases, but reduce the often 
financially restrictive experimentation and trials that are 
required to make even incremental improvements and treatments.
    Materials for power devices from batteries to solar cells. 
These have been studied for decades, but in many respects, the 
United States is still early on in this journey. Companies are 
moving with speed, and with national support, it is possible 
that quantum computing can soon reach an inflection point.
    The race to achieve a workable quantum computer that can 
reduce scarcity to this level requires greater national 
attention than has currently been realized by either the vast 
majority of companies, or of the country as a whole. The steps 
to enabling quantum computing will need to involve, one, an 
effort that funds the creation of factories for new quantum 
chips.
    A semiconductor fab for classical computers can cost as 
much as $20 billion. To a large extent, these fabs are not 
being built in the United States. We have an opportunity to 
acknowledge and to change this trend by leading the way in the 
construction of factories for this next generation of powerful 
computing.
    Two, artificial intelligence. While quantum computing 
itself will increase the capabilities of artificial 
intelligence, the ability to design materials and software for 
quantum computers themselves will come through the interaction 
of human and computer agents.
    Understanding such key elements as component design, 
fabrication conditions, and the number of qubits needed 
requires collaboration of humans and machines. The number of 
qubits in a quantum computer is directly related to the number 
of calculations. A 10 qubit quantum computer can produce 1,000 
calculations, and a 30 qubit quantum computer can produce 1 
billion. Millions of qubits are required to achieve the full 
potential of quantum computing. This exponential growth in 
qubit to calculations is beyond the reach of factories as they 
are. Without the advanced tools of AI for controlling 
factories, a truly useful quantum computer may not be possible.
    Three, education. We need to develop the expertise required 
for the multidisciplinary nature of quantum computer science. 
It is physics, chemistry, mathematics, computer science, and 
application curiosity and expertise are all necessary. We 
cannot work in isolation. We need to embrace immigration and 
welcome strong talent from around the world with expertise in 
these areas.
    When we look toward the future, we can see it as a battle 
of ideologies, of resources, or of technologies. Quantum 
computers encompass all of these to some extent. Quantum 
mechanics is the basis of universal behavior at the smallest 
scales, but affects the largest of matter. It is, therefore, 
not surprising that harnessing this physical property has such 
far-reaching implications. It is because of this, that it is 
important that we view it with the powerful association that it 
warrants, with the weight of risk in a fractured world, or of 
great rewards in a unified one.
    As we move forward, we see how quantum computing lets us 
scale in ways that meet not only the needs of industry, but of 
our country and the world.
    Thank you very much.
    [The prepared statement of Mr. Putman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Latta. Well, thank you for your testimony, this 
morning. And Dr. Monroe, you are recognized for 5 minutes. 
Thank you.

                STATEMENT OF CHRISTOPHER MONROE

    Mr. Monroe. Thank you for the opportunity to testify, Mr. 
Chairman. I am honored to be here for this committee's 
disrupter series on quantum computing.
    I am a Quantum Physicist at the University of Maryland, and 
also Co-founder and Chief Scientist at IonQ, which is a startup 
company that aims to build and manufacture small quantum 
computers. I have also worked with the National Photonics 
Initiative, which is a collaborative alliance among industry, 
and academics with the interest in developing quantum 
technology. And I, with the National Photonics Initiative, we 
have promoted the idea of a National Quantum Initiative, and 
there is pending legislation that is coming up in the House 
Science Committee.
    So I have about 1 minute to define what quantum computers 
are, and I think I can get to some of the basics. We know that 
information is stored in bits, zeros, or ones. The fundamental 
difference in quantum information is it is stored in quantum 
bits, or qubits, these can be both zero and one at the same 
time, as long as you don't look. And at the end of the day, you 
look, and it randomly assumes one of the values. But as long as 
you don't look, there is a potential for massive parallelism as 
you add qubits, you get exponential storage capacity. And 
because quantum computers only work while you are not looking, 
it involves quite revolutionary, and even exotic hardware to 
realize this. Individual atoms, that is the technology we use 
at IonQ, superconducting circuits that are kept at very low 
temperatures, other competing platforms involved that type of 
technology. It is very exotic stuff. And I think within the 
next several years, we are going to see small quantum computers 
with up to about 100 quantum bits. It sounds pretty small, but 
even with 100 quantum bits, it can, in a sense, deal with 
information that eclipses that of all the hard drives in the 
world. And on our way to a million qubits, where we can do new 
problems that conventional qubit computers could never tackle, 
we need to build the small ones first.
    So in terms of quantum applications, I would say it falls 
roughly into three categories, there are strong overlaps. In 
the short term, quantum sensors can enhance sensitivity to 
certain measurements that could impact navigation, and it may 
be in a GPS-blind environment and also remote sensing.
    In the medium term, quantum communication networks may 
allow the transmission of information that can be provably 
secure, because remember, quantum information only exists when 
nobody looks at it. If somebody looks at it, it changes. And 
that can make communication inherently secure.
    In the long term, probably the most disruptive technology 
are quantum computers. And quantum computers are not just more 
powerful computers, they are radically different, and they may 
allow us to solve problems that could never, ever be solved 
using classical computers. These involve optimization routines 
that could impact logistics, economic and financial modeling, 
and also, the design of new materials and molecular function 
that could impact the health sciences and drug delivery, for 
instance. An even longer term, quantum computers could be used 
to do decryption, breaking of popular codes. So there is a 
security aspect to everything that quantum information touches.
    Now, the challenges are pronounced in this field. There are 
a few issues. One involving the workforce and one involving the 
marketplace. The workforce issue is that universities are chock 
full of students and faculty that are comfortable with quantum 
physics, and we do research in the area, but we don't build 
things that can be used by somebody that doesn't want to or 
need to know all the details. Whereas industry makes those 
things, but they don't have a quantum engineering workforce.
    The marketplace is also a challenge because we don't know 
exactly what the killer app for quantum computers, in 
particular, will be. So we have promoted the idea of a National 
Quantum Initiative that would establish several large and 
focused hub labs throughout the country, and other components 
as well, including the user access program for existing quantum 
computers. It is imperative that the U.S. retain its leadership 
in this technological frontier. As we heard from the chairman, 
there are concerted efforts in Europe and, in particular, 
China, that is spending lots of very focused investments in 
this field.
    So, in conclusion, quantum technology is coming and the 
U.S. should lead in this next generation of sensors, computers 
and communication networks. The National Quantum Initiative 
provides a framework for implementing a comprehensive quantum 
initiative across the Federal Government.
    Thank you, Mr. Chairman, members of the committee, for the 
opportunity to speak on quantum technology and the need for a 
nationally focused effort to advanced quantum information 
science and technology in the U.S.
    [The prepared statement of Mr. Monroe follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Latta. Well, thank you very much.
    And Dr. Franklin, you are recognized for 5 minutes.

                  STATEMENT OF DIANA FRANKLIN

    Ms. Franklin. Thank you for the opportunity to testify, Mr. 
Chairman, and Ranking Member Schakowsky. I am honored to be 
here before you in the committee to offer testimony on the 
promise of quantum technology. The important role universities 
must play to realize commercialization, and the biggest 
challenges we are facing in doing so. In my dual roles as 
Director of Computer Science Education at UChicago STEM Ed, and 
a Research Associate Professor in the Department of Computer 
Science at the University of Chicago. I research emerging 
technologies and computer science education.
    As lead investigator for quantum education for the EPIC 
quantum computing project in the NSF expeditions in computing 
program, it is my mission to design and implement educational 
initiatives at K-12, university and professional venues to 
develop a quantum computing workforce.
    Quantum computing can be a game changer in promising areas, 
including drug design and food production. By accelerating 
research time to develop drugs, critical Federal research in 
Medicaid dollars could be saved, along with improved quality of 
life.
    Unlocking the secrets of nitrogen fixation through quantum 
simulation could vastly reduce the energy costs of fertilizer 
production, and thus food production throughout the world. 
While the university has historically been on the forefront of 
computer science and emerging technologies, lapses in academic 
funding for quantum computer science have allowed global 
competitors to make great strides. Putting the U.S. back 10 
years from where it could have been in research output and 
workforce development.
    In the past 17 years, since the inception of quantum 
computer science, distinguished from quantum physics and 
algorithm development, academic funding has only been available 
for 8 of these years, leading to only 10 Ph.D. students being 
trained, rather than a potential of almost 200 students, and no 
meaningful education programs aimed at this area.
    As research groups came and went with the funding, post-
docs were laid off and graduate students were transitioned to 
conventional computer science fields. Yet, universities are 
critical to commercialization. While companies work 
individually and compete against each other to produce 
proprietary tools, academics produce results and tools that all 
companies can use and improve upon, as well as trained experts 
who can work at companies. They are both necessary for the 
commercialization of quantum computing.
    The challenge of bringing quantum computers to the point of 
usefulness cannot be underestimated, both in building reliable 
machines and writing software. Professor Christopher Monroe 
knows extensive expertise in the former. I am here to talk 
about the increasingly important role that computer scientists 
must take. Historical funding and theoretical software and 
quantum devices has created a chasm between the software, which 
assumes large, perfect hardware, and real hardware that is 
small and unreliable at this point.
    NSF has recently recognized this issue supplementing their 
hardware initiative quantumly with a stat program that requires 
an interdisciplinary team that works to bridge this gap. One 
gap is in software development. There is a difference between a 
quantum algorithm and software that can solve a particular 
problem. Bridging this gap requires interdisciplinary teams 
such as exists at QxBranch. Deep expertise is necessary to 
figure out how to modify software that works in one specific 
context to another, much more so in quantum computing than in 
traditional computing. If this were furniture construction, 
what we have right now is piles of wood, screws and nails. An 
expert needs to figure out how to use those to create useful 
furniture. Instead, what we want in the future is for 
nonexperts to be able to go to quantum Ikea, get a prefabbed 
kit and easily modify it for their application. This exists for 
classical computing, but not for quantum computing.
    Another gap is between software and hardware. Current 
algorithms are written for perfect hardware, but hardware on 
the horizon is very error prone. We are on a journey to that 
perfect hardware, but we are not there yet. It is like if you 
meticulously planned to prepare a gourmet meal for ten, but 
when you arrived, there were only supplies for six, and you 
could only use the kitchen for 2 hours prior to the meal, you 
would need to adjust your plans. Current and quantum computers 
that are on the horizon can only sustain computations for a 
limited time, and they are very small. Some modifications can 
be automated. However, for more advanced modifications, the 
plan needs to be rethought, thus, some of the specific hardware 
limitations, like the specific ways in which different 
technologies tend to introduce errors, need to be communicated 
to the programmers so they can figure out how to adjust their 
applications.
    In order to realize quantum computing, Federal funding 
needs to be, first and foremost, consistent, directed at not 
just building hardware and developing algorithms, but to 
interdisciplinary teams that include applications developer and 
computer scientists. Spread across a range of agencies with 
different missions like NSF, DARPA, DOE, and DOD, directed not 
just at technology development, but to workforce development, 
so there are more people available to write applications and to 
perform the engineering work at these companies. And above all, 
supporting the K-12 STEM pipeline to train the next generation 
of innovators.
    With a significant investment in hardware, software, and 
workforce development, I am confident the United States can 
maintain its dominance in computing.
    This concludes my remarks. I appreciate this opportunity to 
speak with subcommittee members. And I am happy to answer any 
questions you might have.
    [The prepared statement of Ms. Franklin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Latta. Thank you very much.
    And Mr. Brett, you are recognized for 5 minutes. Thank you.

                   STATEMENT OF MICHAEL BRETT

    Mr. Brett. Thank you, Chairman Latta and Ranking Member 
Schakowsky, and members of this committee. I am thrilled to be 
here today to participate in today's hearing and discuss the 
opportunities and challenges presented by quantum computing.
    My name is Michael Brett. I am the CEO of a company called 
QxBranch. We are an advanced data analytics company based here 
in Washington, D.C., also with teams in Australia and the U.K. 
We are a fast-growing team of data scientists, software 
engineers, and machine learning specialists who design 
algorithms for challenging data problems. We are at the cutting 
edge of creating algorithms that find patterns, detect 
anomalies, and uncover other business insights that help our 
customers reduce their costs and to serve their customers 
better.
    Data analytics is already a rapidly advancing technology 
area delivering benefits to people all over the world, but we 
are particularly excited about what quantum computing can do 
for our business. As we have heard, quantum computers are not 
just a faster computer, they enable an entirely different 
approach to performing calculations. In the realm of quantum 
physics, there is some incredible and surprising phenomena 
that, if harnessed, could allow us to solve some interesting 
and practically unsolvable problems, like simulating the 
interaction between molecules. As these molecules grow in size, 
the computational costs grows exponentially larger.
    Our friends who build quantum computing hardware are in the 
process of creating machines that take advantage of these 
unique phenomena. And you heard a great example from Chris 
Monroe this morning at IonQ. These machines allows us as 
software developers to solve difficult problems using a 
different kind of mathematics, quantum math, much more 
efficiently than we ever could on classical computers. And our 
ambition is simple: Quantum computers will allow us to solve 
some of the most intractable and most valuable computational 
problems that exist today.
    These new quantum solutions will benefit Americans in ways 
they might not ever be aware of. Globally, the race is on to 
apply quantum computing to problems in transport, energy 
production, health science and pharmacology, finance and 
insurance, defense and national security. And we want our 
applications to be the first apps in a quantum apps store.
    Looking forward to the kind of quantum computers that are 
likely to become commercially available over the next decade, 
there are broadly three classes of application that have become 
possible in the near term. The first are optimization problems, 
like logistics and transport routing, financial portfolio 
optimization. The second is in machine learning, where we can 
accelerate some of the most computationally expensive parts of 
training and artificial intelligence, to detect patterns in 
large and complex data sets.
    And the third is in chemical simulation, where we can use a 
quantum computer to simulate the behavior of molecules and 
materials, and design new processes around them. Across these 
three applications, the potential value to everyday citizens is 
immense. Now let me give you a concrete example of where this 
could apply. QxBranch recently completed a study into quantum 
computing applications with Merck, the pharmaceutical company. 
We worked together to design a quantum algorithm and test it on 
today's available hardware, to look at an approach to 
optimizing the production of a particular drug. And the 
particular drug that they are interested in has an extremely 
challenging production optimization process involved. And 
quantum computing gave us the tools to look at the 
manufacturing process in an entirely different way that could 
radically change the efficiency of creating this drug and 
delivering value to the consumer. It is applications such as 
this that we are focused on at QxBranch, breakthroughs enabled 
by a new approach in computing that allows us to change the way 
we think about business and manufacturing processes. There are 
some challenges ahead, though, in realizing this technology, 
and the Federal Government can help us create the environment 
for industry to lead.
    The three biggest challenges I would like to highlight 
today, first the skills and workforce. As we have heard, if we 
are to be successful at bringing quantum computing to market we 
need a highly skilled, multidisciplinary, diverse workforce 
with core skills in quantum information science, computer 
science, data analytics, machine learning and AI, combined with 
germane expertise in finance, pharmaceuticals, energy and other 
industries. And we need American universities to send us 
graduates with these skills.
    The second is in international cooperation. As American 
companies compete in this emerging ecosystem, we will achieve 
our fullest success through international cooperation. There is 
valuable scientific research and engineering development that 
is being made elsewhere, including in key allies such as 
Australia, the U.K., Canada, Japan, and Singapore. We need to 
be able to access the best talent and technology globally and 
this means partnering.
    There will be national security considerations for this 
technology, of course, but if export restrictions are applied 
prematurely or without your consideration, it will stifle 
commercial innovation.
    Finally, we need to maximize and leverage private sector 
investment into this technology area. Over the past 18 months, 
we have seen an incredible acceleration in corporate R&D and 
venture capital flying into this technology. It is an exciting 
time, but I must stress that we are just at the beginning of 
this technology development. And the government can maximize 
and leverage this investment through targeted Federal funding 
and coordination to reduce the gaps and overlaps in R&D and 
help accelerate technology.
    So in closing, I would like to reiterate my appreciation 
for the opportunity to join you today and share a little about 
what we are doing at QxBranch and quantum computing. This 
subcommittee is addressing important issues that will help 
bring quantum computing to commercial reality and give us a 
powerful, new tool to create valuable software.
    [The prepared statement of Mr. Brett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Latta. Thank you for your testimony. I appreciate all 
your testimony this morning, and that will conclude our 
witnesses' testimony this morning, and we will begin our 
questioning from the members. And I will now open with 
questions with 5 minutes. And pardon my allergies this morning, 
it is this time of year in Washington.
    First, I really appreciated reading your testimony last 
night, and a lot of questions in 5 minutes. But if I could 
start, Dr. Putman, with you, if I may, because I really was 
interested, so what impact does quantum computer have on 
manufacturing in the United States? Because, like, in my 
district, I have a unique district, I have 60,000 manufacturing 
jobs, and I also have the largest farm income producing 
district in the State of Ohio. And in your opening statement, 
you had mentioned about on the manufacturing side, you talked 
about with drugs and agriculture, energy, and this committee 
deals a lot with all that, and not really on the agricultural 
side, but I was really interested in that. And I would like to 
know, especially what the impact would be on manufacturing? And 
also, am I correct that it would both create new opportunities 
while disrupting those existing industries that are out there 
today?
    Mr. Putman. Thank you, Chairman Latta, my fellow Ohioan. 
This is, of course, extremely personal to me as well, being 
from Ohio and creating and trying to enable manufacturing work. 
What is important, I think, about your question, is that these 
are brand new industries. It is not just about disrupting 
current industries, it has been creating jobs that are for the 
next generation of technologies. And this is building, I think, 
interesting jobs as well for technologists of the future, and 
that goes through entire large factories. I mentioned the cost 
of a fab. It is not just the cost of building a fab, we would 
like to bring down the cost to build fabs. It is the 
opportunity for workers to be working with the latest of 
technologies. I think that the Midwest and the rest of the 
country as a whole can only benefit from this.
    Mr. Latta. Thank you.
    Dr. Monroe, what changes would be needed to ensure America 
has that workforce that is ready for quantum computing 
revolution? You will be hearing from the witnesses, we have to 
have that workforce out there in the training. So how do we get 
to that point? Do we need on the educational side, especially 
at the university levels, do we need universities that would 
specialize that in the field or what do we need to do?
    Mr. Monroe. Well, thank you for the question, Chairman 
Latta. There are a number of things that we can do as a country 
to foster this gap, this connection between university and 
government laboratory research and I said, industrial 
production. At the university side, I am sorry to say that most 
engineering and computer science departments haven't really 
embraced this field as Dr. Franklin mentioned.
    Mr. Latta. Why? Why not?
    Mr. Monroe. Well, I have my own thoughts on that. Actually 
my daughter is a computer science major at University of 
Maryland. And the computer science departments--the students 
are keen to get a high-paying job right after they graduate. 
Quantum computing, not that it is not a high paying job, but it 
is a very speculative field. And it is hard to identify exactly 
what the marketplace is. And I think--computer science 
departments and engineering departments, I think, they have not 
embraced this field as much as the sciences have. And I think 
that is changing at some places. My university, the University 
of Maryland is one of those, Chicago is another. There are 
several across the country that have done that, but it is not 
widespread. Many of these departments won't hire faculty that 
are doing research in this field. And I think Dr. Franklin 
mentioned the National Science Foundation is taking an active 
role in trying to change that by instituting new grant programs 
that foster the development of quantum computer science for 
instance.
    So that is on the university side. On the industry side, it 
is a tough nut to crack, because this new technology as I 
mentioned involves very exotic type hardware that industry 
doesn't have so much experience with. And it reminds me of, in 
history in the 1950s, when semiconductor devices were being 
developed and scaled, the people who did this over the many 
decades that gave rise to Moore's law including Gordon Moore, 
who founded who Intel, these were not vacuum tube engineers who 
had instituted the previous generation of computers. So it 
takes time, and it takes risk, and it takes funding from these 
corporations to do that.
    Mr. Latta. Well, thank you very much. And my time is about 
to expire, so I am going to yield back and recognize the 
gentlelady from Illinois, the ranking member of the 
subcommittee, for 5 minutes.
    Ms. Schakowsky. I am starting to understand the much-used 
phrase taking a quantum leap, because really what you are 
talking about is of all the things that I think we have heard 
about the most disruptive, in a good way, and in a challenging 
way to the future. And so, I wanted to talk to Dr. Franklin 
about things I think I know more about, which is about 
education. And I do want to hear more about EPIC and the things 
that you are doing.
    But first, I want to hear about your efforts with younger 
students in a minute, but I want to first hear about what is 
happening at the graduate and undergraduate level. What I am 
hearing really from all of you is that workforce capacity is 
really a challenging issue. And if we are going to be 
competitive, and if we are going to keep up with countries that 
are making the EU and also China, then we need to get serious 
about making these public investments. But I am wondering if 
you can talk to me a little bit about the urgent need?
    Ms. Franklin. Yes. So I think Dr. Monroe mentioned that 
computer science hasn't had as much quantum in it. And I think 
it all comes back to those funding lapses, because our group 
and other groups started and the way courses get created is 
that graduate students get trained in a field, they go out and 
become professors, create classes and train more students. 
Those students need to be able to have jobs in order to make it 
worth it for them to take those courses. If no Federal 
funding--if a program gets canceled and you are two of six, and 
all of the Federal funding goes away, and then graduate 
students get put in other fields, you are not going to have an 
education program, and so that is what happened twice is that 
the Federal funding went completely away for the computer 
science portion of quantum computing. And so, groups that were 
active in getting into the field left the field.
    And so now, with this new stack funding and the new EPIC 
program that we have, and we are planning educational 
initiatives at all levels, including tutorials for 
professionals, we have a tutorial in June and a tutorial in 
October for professors and graduate students who are already in 
the field who want to transition to quantum computing. There is 
an initiative in the institute for molecular engineering at 
UChicago that has an undergraduate degree with a quantum track. 
We are partnering with them to create some computer science to 
add to that hardware track. And there is a program----
    Ms. Schakowsky. Is that the quantum engineering degree that 
you are talking about?
    Ms. Franklin. Yes. There is a quantum track of the 
molecular engineering degree, yes. And they also have a program 
to embed graduate students that are working in all areas of 
quantum with with companies. And so, we are participating in 
that. So we are trying to train other research groups so that 
they can start doing research in quantum.
    Ms. Schakowsky. Given the potential, it seems to me that we 
have to have some sort of almost like a moonshot mentality 
about investment. And you are so right about all kinds of 
research. If it is not steady and consistent, then we either 
have a brain drain, people go elsewhere, or that research app 
grinds a halt.
    But do tell me a bit about some of the things you are 
working on in the primary and high school level. That is also 
under your bailiwick, too, right?
    Ms. Franklin. Right. So at the elementary and middle school 
level, we are looking at not doing quantum computing per se, 
but computer science in general, because in order to have a 
quantum computer scientist, you need a computer scientist 
first. And so efforts like CSforALL are critical in getting 
computer science early because in science, anyway, if a student 
isn't thinking about becoming a scientist by sixth grade, they 
are statistically very unlikely to become a scientist. And so 
we believe the same thing may be true for computer science. So 
we want to have those initiatives early.
    On the physics side, we are looking at what are the aspects 
of quantum computing that are unintuitive when you get there? 
And one of them is this idea of measurement, Chris Monroe said 
that all the operations work fine until you look at them. And 
it is an issue that the measurement device actually perturbs 
the state. For example, if you had Matchbox cars and you wanted 
to see how fast they were going, you could put your hand out 
and feel how hard it hits your hand. But now that stopped the 
car. And so this idea that your choice of measurement actually 
affects the system. And in quantum computing you have no other 
choices. For a car you could video it and then calculate which 
one was faster, but we don't have that opportunity in quantum 
computing. And so those sorts of things that are very 
unintuitive can become intuitive if you just give the right 
examples at young ages.
    Ms. Schakowsky. Thank you. I am pretty much out of time. I 
yield back.
    Mr. Latta. Thank you. The gentlelady yields lack.
    The chair now recognizes the gentleman from Illinois, the 
vice chairman of the subcommittee, for 5 minutes.
    Mr. Kinzinger. Well, I thank the chairman for yielding. 
Thank you all for being here. I can understand about 50 percent 
of the things you say, so.
    Mr. Brett, in your testimony you stated that quantum 
computers will allow us to solve some of the most intractable 
and valuable computational problems that exist. Can you explain 
how doing so will benefit everyday Americans?
    Mr. Brett. Thank you, Congressman. There are some problems 
in computer science that as we add more variables to them, or 
more factors to them, become exponentially more difficult to 
solve. And so that means that the time that is required to 
solve that problem doubles every time we add a new variable to 
it. And so, we can reach a limit of our computational capacity 
to solve those kinds of problems very, very quickly, even with 
circuit computers and cloud computing that is available today.
    So for everyday Americans that are problems like how do we 
optimize our financial portfolio in our 401(k) where the amount 
of computational work that is required to do that is already 
immense. But if we want to include more factors involved in 
that and get the most efficiency for our portfolio, the scale 
of computational challenge increases exponentially and so 
quantum computing can help with that. We can take on more 
complex and more difficult problems and solve them in a much 
shorter time with a new type of machine.
    Mr. Kinzinger. OK. Now I am going to be honest Dr. Putman, 
I really don't know what I am going to say here, so I am going 
to say it and hopefully you understand the question. OK.
    When you measure a qubit, it immediately changes its value 
to either a solid one or zero. So as I understand, which I 
don't, to manipulate a quantum computer, the operator needs to 
be able to make measurements indirectly without a qubit 
observing you doing so. How do you do that? And how does that 
match the capabilities of classic electronic computers and 
processors with billions of transistors?
    Mr. Putman. This is one I feel like I should have one of 
the quantum computing experts answer. This is something that 
occurs in physics that has been measured for many, many years. 
So how it is implemented becomes our greatest challenge, and 
there are several different ways to do it. Generally, you want 
to be in a situation where you control the atmosphere. While it 
is observable in nature, it is not as controllable as dealing 
with information series stringing of zeros and ones which just 
adds up in sums. I think I would like to have someone else 
explain the actual technology of how it might work. Dr. Monroe?
    Mr. Monroe. Sure. First I would like to add that you are in 
good company because Albert Einstein never accepted quantum 
mechanics. He didn't think it was complete.
    Mr. Kinzinger. So I am basically like Albert Einstein. 
Thank you, sir. I agree.
    Mr. Monroe. Analogies do wonders in all of science, 
especially in quantum mechanics. I agree with Dr. Franklin's 
statement that finding analogies, you can teach the concepts to 
young children in elementary school. I totally believe that.
    Here is an analogy for a qubit. It is a coin, imagine a 
coin, when we flip a coin, it is in a definite state all the 
time, but we might not know what it is or want to know all the 
details, but if you think of a coin as being quantum in, say, 
both heads and tails at the same time. Imagine now it is in a 
black box and you are not looking at it, so it is both heads 
and tails at the same time, but I want to control that coin, I 
want to maybe flip it. Let's say it is a weighted coin, so it 
is 90 percent heads and 10 percent tails. I want to flip the 
odds to be 90 percent tails and 10 percent heads. Well, we can 
do this from the outside world by just turning the box around, 
in a sense.
    Mr. Kinzinger. Actually, that makes sense.
    Mr. Monroe. So we don't know what the state was, we didn't 
measure it, we didn't betray the quantum system but we 
controlled it. And so to Dr. Putman's point, this is pretty 
exotic hardware, because the quantum stuff is inside and we 
have to keep our distance when we control it. We have to do 
things without looking and put quotes. What it means is that 
the system is so extremely well isolated that we don't get the 
information out. So a quantum computation involves 
manipulations like that. They can be much more complicated. 
Flip one qubit depending on the state of another, for instance, 
without looking--and it is possible to do that in a very small 
group set of technologies. Then at the end of the day, you 
unveil, you open the box, and you measure only one state, but 
it could be lots and lots of bits and that one answer could 
depend on exponentially many paths, exponentially many inputs 
in the device. As Mr. Brett mentioned, this can be put to use 
for real world problems, and logistics, and so forth.
    Mr. Kinzinger. Awesome. Well, thanks. Nice work. I yield 
back.
    Mr. Latta. That is a large statue of Albert Einstein down 
the street, Mr. Vice Chairman, in front of the State 
Department. So you might get your statue there some time.
    The chair recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Guthrie. Thank you very much.
    That was a good example. I am trying to understand this and 
move it forward. This is kind of in my family. I didn't get any 
of the genetics, but have a nephew at the University Chicago in 
the physics department going to CERN this summer. So he is in a 
different league than I am. So some of the discussion we hear 
is like he and my son talking to each other during Thanksgiving 
or whatever, he is a computer science and math person as well, 
working in Chicago, but in the financial industry.
    So I guess I am trying to figure out, or take in the 
theory, not really theory but the things that you are talking 
about that is hard to understand and make it to the real world.
    So first, Mr. Brett, I will go to you. Can you tell us a 
little bit about what your company is doing in the financial 
services area? That is where my son is in, in algorithms. He is 
in one of the quant guys, I guess, in hedge funds, but how 
quantum computing would be an improvement over classical 
computing. What difference does this make, I guess? And what is 
your firm doing in financial services to be better than what is 
currently there?
    Mr. Brett. Thank you, Congressman. The financial services 
sector is already a huge user of cloud compute technology. So 
they are using immense amounts of computational work, either on 
public clouds, like AWS or Microsoft, or their own private 
service. And it is important to understand that quantum 
computers won't replace classical computers. They will exist 
side by side in the cloud. And quantum computers will run some 
the algorithms that they are most efficient at. So in a mixed 
compute environment of financial services company will run 
their daily operation around compliance, portfolio, 
optimization, understanding risks, but send some of the 
algorithms that are in the program to the quantum computer to 
be most efficiently run.
    Mr. Guthrie. So what does that do different? In what way? 
How is that?
    Mr. Brett. So a quantum computer cannot allow us to solve 
some particular algorithms that cannot be solved on a classical 
machine in a useful timeframe. So we might be able to solve it 
over many, many years, or decades even, but what if we need the 
answer today? A quantum computer can help give us that speed 
advantage.
    Mr. Guthrie. So why wouldn't it completely replace the 
classical update if it gets to that?
    Mr. Brett. It is too expensive, and also, there are some 
problems that quantum computers can't do. So quantum computers 
aren't particularly good, for example, at addition or 
subtraction, so we leave those to classical computers to do 
that work, and quantum computers specialize in what they are 
good at, which is optimization problems.
    Mr. Guthrie. OK. This is a little harder for my mental 
capacity to understand something that can't do math, but can do 
other things, but simple math, I guess. So I am at addition 
subtraction level. I am not an Einstein like my friend, Mr. 
Kinzinger.
    So Dr. Putman, in your testimony--I am trying to get back 
to reality--you did find the problem scarcity as one that 
quantum computing could help solve. And how might quantum 
computing disrupt traditional models of how resources are 
created and distributed in an economy?
    Mr. Putman. Thank you, Congressman.
    Often, there is an enormous amount of waste in the way that 
we currently produce anything. This is not due to humans caring 
to produce waste, or a problem with this in general, it is due 
to our inability to comprehend and to simulate and to build. 
The more precise we are on a molecular level, the better we are 
at being able to do that. The examples that I used such as 
fertilizer, for instance, or of material science, a classical 
computer gets very rough examples of how to actually build 
something and understand what is going on molecularly. The more 
we are able to do that in ways that quantum computing allows, 
the more we can explore the space of possibilities. When we 
explore that space and understand it, it gives us a chance to 
create it. This just is not possible with humans alone, or with 
our classic computing systems. This applies to many areas that 
we could go on about.
    Mr. Guthrie. OK.
    Mr. Putman. But certainly in manufacturing, it creates an 
entirely different way of doing manufacturing when we are 
precise.
    Mr. Guthrie. OK. When we are doing votes in the cloakroom, 
I am going to let Adam further explain this to me. So I am 
willing to do that moving forward. Thanks.
    I understand it is just such a difficult concept for people 
not in your space to understand, but it is exciting stuff. I 
have about 30 seconds. But Dr. Monroe, I know Dr. Putman 
mentioned about qubits, how many in quantum computers. But here 
is a question, is what is the signal-to-noise ratio per qubits? 
For which I mean, how many qubits does one need for a useful 
quantum computer? And of those, how many would actually be 
performing calculations?
    Mr. Monroe. Ah, thank you for the question. I probably 
won't answer it to your liking.
    Mr. Guthrie. To my understanding. Probably to my liking, 
just not to my understanding.
    Mr. Monroe. We don't know yet how many qubits are needed 
for something useful that can displace conventional computers. 
However, a relatively small number of about 75 or 100 qubits is 
enough to show certain, very esoteric and narrow, maybe not 
useful, problems can be solved that cannot be solved using 
conventional computers. That doesn't mean they are useful. And 
so it is sort of a proof of principle, and that is going to 
happen very soon. But then the question after that happens, 
once we are beyond that milepost, the idea is to find something 
useful. And I think the only way to find something useful is to 
put these devices in the hands of people that don't know or 
care what is inside the devices, sort of like my smartphone. I 
don't really want to know what is inside. And to build these 
devices, I use the word ``exotic'' a lot; it is exotic hardware 
to build these devices. It takes a new generation of engineers. 
And it may be that we need hundreds, it may be that we need 
thousands or more of these qubits for something useful.
    Mr. Guthrie. Thank you. I yield back.
    Mr. Latta. Thank you. The gentleman yields back. The chair 
recognizes the gentleman from Massachusetts for 5 minutes.
    Mr. Kennedy. Thank you, Mr. Chairman. Thank you for calling 
this important hearing. Thank you to our panelists today for 
being here. From what I can tell, all of you clearly believe in 
the future of quantum computing, that is great. Still, there 
are some very smart people out there who are skeptical that 
quantum computing won't ever become a practical reality. They 
say for instance that quantum computers are too unstable and 
error-prone to be harnessed for real world problem-solving.
    Dr. Franklin, and anybody else who wants to comment on 
this, how do you respond to those skeptics? And what do you see 
as the biggest hurdles to a real world application for quantum 
computing?
    Ms. Franklin. Well, I think that if we made decisions based 
on that assumption then we clearly won't build a quantum 
computer. And if we are wrong, the stakes are far too high, 
because other countries will make one, and then they will be 
able to decrypt all of the messages--there are so many 
advantages, if it can be realized, that we don't want to be the 
ones who decide early and then are wrong. And we are making 
great strides.
    Yes, right now, quantum computers are very small and very 
error-prone. And so physicists like Dr. Monroe are working on 
making them more stable, larger, longer running. And then there 
is the piece in between. It used to be that classical computers 
were very large in size, but very few bits and couldn't do very 
much. What we could do in the 1980s in supercomputers is on 
your smartphone now. And so we don't know what can be done, and 
we need to put the resources in to see where we can go, because 
the stakes are just too high.
    Mr. Kennedy. Dr. Monroe.
    Mr. Monroe. I would add on to that, I think, the question 
the same technology we used to build quantum computers is also 
used for quantum communication and quantum sensors. And these 
are real-world applications that can be and are deployed right 
now.
    On the sensor side, the ability to detect signals remotely, 
the optical techniques, or to detect mass, which means if you 
are underwater, you need to know where you are to navigate. If 
you are exploring for oil, you need to know what is underneath 
the rock. Is it oil? Is it water? Those sensors, the limiting 
signal to noise in those sensors is given by quantum mechanics, 
we actually exceed those seemingly fundamental limits, in some 
cases. I mention this because that same type of technology is 
used in quantum computers. I do believe that quantum computers 
are most disruptive of all these technologies, but along the 
path toward that, there will be other spinoffs.
    Quantum communication is largely photonic, optics as we 
communicate now over long distance. You can also do this with 
single particles of light, photons. And photons can--these are 
wonderful quantum bits that can be used for quantum computing 
in some cases, but they can also be used to send data in ways 
that are hack-proof. If somebody tries to observe it, they 
change it, they can cut the line always, they destroy your 
communication, but they can't intercept it and understand it. 
So what does that have to do with quantum computing? If you are 
going to build a big quantum computer, it is going to be a 
network. It is going to have optics that fiberize little 
modules on a computer. None of this hardware really exists 
today to couple those photons to quantum memories in qubits. I 
would hang my hat on quantum computing being the most 
disruptive of all of them, but along the way many other 
technologies related.
    Mr. Kennedy. Dr. Franklin, you started to get into 
something that I wanted to ask--have got about 1 minute and 15 
seconds left or so--encryption and the application of quantum 
computing to encryption and the potential for it to render in 
encryption obsolete. Can you talk me through that and what is 
the reality of that?
    Ms. Franklin. Yes, so encryption is all based on the idea 
that doing one operation is much harder than undoing it. It is 
a lot easier to multiply two numbers than it is to divide or 
factor a number. And so there is a quantum computing algorithm 
that actually takes a lot this and so that is not one of the 
near-term applications, but that makes it so that factoring the 
very numbers that are used to create those keys that are 
required to encrypt and decrypt, can be broken down very easily 
to their components, and their components are necessary to 
decrypt. And so if we get a quantum computer of that size, we 
are going to have to figure out completely new encryption 
algorithms that use mathematical functions that a quantum 
computer cannot do quickly.
    Mr. Kennedy. And is that time horizon, can you put a time 
horizon that actually takes a lot on that.
    Ms. Franklin. Chris?
    Mr. Monroe. So this factoring problem, it is among the 
hardest out of there. You probably need tens of thousands of 
qubits, quanta bits and millions, or more, maybe even billions 
of operations. I will say, however, the problem is so important 
that you need to know--you don't want a quantum computer just 
to break messages. You want to know when one exists, that 
impacts how you encrypt now. We are talking political time 
scale, so if a computer exists in 30 years, that could impact 
how you encrypt things now, so you may want to be ahead of the 
game and change the encryption standards based on when a 
quantum computer will exists, and it is very, very hard to 
predict 30 years in the future what technology will bring us.
    Mr. Kennedy. If you can predict what is going to happen 
tomorrow, we should hang out more. Thanks very much. I yield 
back.
    Mr. Latta. The gentleman yields back. The chair recognizes 
the gentleman from Florida for 5 minutes.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. I 
appreciate it. I will be as brief as I can to get everyone else 
in.
    Mr. Brett, in your testimony, you identify three classes of 
applications that are possible in the near term, and I know you 
talked about these earlier.
    Can you briefly explain why you expect those to be the most 
possible in the near term?
    Mr. Brett. Thank you for the question, Congressman.
    With the earliest quantum computers, like the type that 
Chris Monroe is building at the moment, the first versions of 
these won't have error correction on them. And so the kind of 
applications that we can build need to able to accommodate 
errors and the potential imprecisions that come along with 
that. And so the kind of applications that are best suited to 
early stage quantum computers are those which are the most 
tolerant or resilient to error. And those are things like 
optimization problems, working with chemical simulation and 
machine-learning-type problems because the kind of algorithms 
we run on there are based on probabilities. And so we already 
get a probabilistic-type answer from classical computers out of 
that, and a quantum computer best matches what is possible 
there.
    So the early stage applications are those that are more 
probabilistic, more resilient to error. And then, as the 
computers become more capable and better, we will be able to 
take on the harder type problems that require error correction 
around that.
    Mr. Bilirakis. OK. Thank you.
    This next question is for the panel. Will quantum computers 
be something that anyone can use, which is important, or will 
it require a highly sensitive operating environment, such as 
that only a handful would be able to operate?
    Why don't we start from over here, from afar, please.
    Mr. Putnam. Thank you, Congressman.
    It has to be something that has user interfaces that are 
possible for everyone in order for it to be incredibly 
relevant. The physics and the hardware behind it, just like the 
hardware and the physics behind everything else we do, will 
have a lot of specialists involved with it. But it is important 
for us, it is a challenge and important for us that this is 
something that is in the hands of anybody.
    So I think absolutely.
    Mr. Bilirakis. So it is not going to require additional 
training or anything like that----
    Mr. Putnam. Well, only to the extent that everything we do 
requires some amount of training until it becomes so 
commonplace that it becomes natural.
    Mr. Bilirakis. All right. Very good.
    If you could comment on that, please.
    Mr. Monroe. Sure. Thank you for the question. I will be 
very brief.
    I think the answer is it will be very much like current 
computers. The use of current computers to program in certain 
languages takes some training. It will be a different type of a 
language.
    But the fact that there are individual atoms in the device 
at the end of the wire will be lost on the user, and it should 
be. They don't need to know that. They need to know the rules, 
the programming language, and what it can solve.
    So I think the answer will be affirmative.
    Mr. Bilirakis. Very good.
    Ms. Franklin. Yes. I think there are sort of three levels. 
One is the hardware. We are seeing quantum cloud computation, 
so I think it is likely that you won't buy one and maybe have 
it in your pocket. But at least the cloud resources will be 
there.
    And as a user, you may not even know that you are using a 
quantum algorithm. The services that you use will have 
programmers who have made a combination of quantum algorithms 
and classical algorithms and send that computation to the 
cloud. When you do a Google search, something like a hundred 
programs respond off for that one search to figure out, is it 
an airline, is it a mathematical--all these different things.
    In terms of the ability to program it, that is where the 
most work has to come in. Right now, the amount of expertise 
needed to program these is insane. It is a high level of 
expertise. But that is how it was when the first women 
programmers were given a spec of the first computer and said, 
``Here. Program this,'' right?
    They did it from the hardware. That is essential where we 
are. It is very tied to the hardware. So we need to figure out 
what are those abstractions that are still useful computingwise 
but also understandable to people who are the current level of 
a traditional computer scientist or even an application 
developer.
    Mr. Bilirakis. OK. Very good.
    Please.
    Mr. Brett. Thank you for the question.
    I fully agree with my fellow panelists that we believe that 
you shouldn't need to have a degree in quantum physics to 
program a quantum computer. And so that is exactly what we are 
doing at QxBranch, is building the software that enables 
regular software engineers and computer scientists to create 
applications and to do so without needing to know the 
intricacies of what exactly is happening down at the molecular 
scale.
    I will also point out that quantum computing is already 
becoming accessible. So, in the cloud today, IBM, for example, 
have released a quantum computer that we can all access. It is 
at IBM.com/quantum. We can go there this afternoon, do a short 
course on quantum computing programming, and start to build up 
that knowledge and understanding of what is possible and start 
to build those skills for the future.
    Mr. Bilirakis. All right. Very good.
    I yield back, Mr. Chairman. I appreciate it.
    Mr. Latta. Thank you. The gentleman yields back.
    And the chair now recognizes the gentleman from West 
Virginia for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    And, again, thank you for continuing to put before us in 
our hearings some very provocative thoughts and through this 
disrupter series. We have dealt with, over the past 2 years, 
some very curious and innovative and, for me, as one of two 
engineers in Congress, exciting possibilities where we might go 
with this. So I am fascinated with it, but I am also--I am 
sorry that the other side of the aisle didn't show up today. 
But I was curious to hear more of what Kennedy was talking 
about, the skepticism, because when I looked a little into 
that, there is some skepticism. And one of the articles I was 
reading a couple days ago had to do with reliability of the 
results.
    So I know from doing my own engineering calculation that we 
can--at the end of the day, we know whether that result makes 
sense. But what happens when we use quantum computing if we 
get--and I think, Monroe, I think you might have said if they 
are error prone, do we rely on the result? How do we question 
it? If we are relying on our computers to give us the answer 
and then we get the answer, how do we know it is wrong? Or how 
do we know it is right because of all the variables that you 
have all talked about here?
    Do you want to answer that?
    Mr. Monroe. Yes. Thank you for the question. A very good 
one.
    I think it speaks to the--so far, the limited research of 
what a quantum computer is useful for. There exist problems, 
like the factoring problem; you can easily check it. Fifteen is 
equal to five times three. When that 15 is a huge number, you 
can't do it using regular computers, but you can multiply your 
answer together to check and see if it worked.
    Mr. McKinley. Talk about encryption.
    Mr. Monroe. Yes. If you can factor large numbers, you can 
break the popular types of encryption algorithms out there now. 
And if you think you have a code breaker, you can check it 
quickly.
    And so almost all applications of quantum computers, they 
are either checkable against some standard, or they could be 
better than any classical approach. Say, for instance, in the 
financial market or some logistics problem where there is a 
cost function, it is in real dollars, and you are trying to 
minimize the cost subject to an uncountable number of 
constraints and configurations of the marketplace, for 
instance.
    Well, if your quantum computer comes up with a result that 
has lower costs than any conventional computer could compute, 
then you found a different solution.
    Mr. McKinley. OK. A couple quick points here to follow back 
up.
    I can see there is a lot more--again, fascinating. I want 
to read more. This whole idea has triggered me to do a little 
bit more research in this as well.
    But let's talk about the timetables. Right now, yes, some 
elementary units are out there. But what is the metric? Where 
is the goal? Where do we want to achieve? And how do we know 
whether we are there? And, secondly with that, what is the role 
of Congress on this?
    Is this just more money into research? You talk about 
building plants or facilities so that we could build these 
qubits? Is this what it is? What role is government?
    Mr. Monroe. Well, thank you for the question.
    Again, I mentioned the idea of a national quantum 
initiative and the crux of that initiative is to establish, 
indeed, a small number of hub laboratories. They are not new 
buildings.
    Mr. McKinley. These are hub zones or hub lab--yes.
    Mr. Monroe. Yes. Quantum innovation laboratories. They 
could be at existing university, Department of Energy, or 
Department of Defense laboratories, collaborations with 
industry, hubs where students and industrial players are all in 
the same sandpit.
    And each of these hubs--there will be a small number of 
them--they would focus on a very particular aspect of quantum 
information or sensing or quantum computing. Maybe develop 
particular brand of qubit, for instance.
    And the point here is to foster the generation, a new 
generation, of engineers in that particular technology. 
Industry will be able to connect more vitally with the 
university and a potential workforce. Students could have ----
    Mr. McKinley. Are we trying to develop a standard qubit?
    Mr. Monroe. I think it is too early to do that now. I think 
we have several different technologies, and they will probably 
all find different uses. Sort of like now we have a CPU on a 
computer. We have memory. There are all kinds of different 
components, different hardwares that are good for different 
things. And we will probably see that in quantum as well.
    Mr. McKinley. OK. Again, what is the timetable?
    Ms. Franklin. Well, I think it depends on the application. 
Encryption might be 30 years off. But we have got 50 qubit 
machines now that are growing. And so these near-term 
applications, like optimization, are on the horizon, maybe 5 
years. The hardware is coming along very quickly. I think 
that--and some software, but this is the first I have heard of 
a software company. I am very excited.
    But that middleware. There is software that needs to be 
created that makes it so that algorithms that assume perfect 
hardware can be modified to use this near-term hardware so that 
we don't have to wait as long and can help close that gap 
between the assumptions of the software and the realities of 
the hardware.
    Dr. McKinley. OK. Thank you.
    I yield back.
    Mr. Latta. Thank you. The gentleman yields back. And the 
chair recognizes the gentleman from Indiana for 5 minutes.
    Mr. Bucshon. Well, thank you for being here. It is a 
fascinating subject. I was a surgeon before, so I am kind of a 
scientist. I am interested in this. My daughter is sophomore at 
Cornell in computer science. So she is, obviously.
    I am going to take a little different pathway here on 
questioning and stay away from the technical stuff and go 
toward research funding. And I was on a committee before that 
had jurisdiction over National Science Foundation. I am from 
Indiana. I went to all the universities and talked to the NSF 
funded researchers. And the one thing that I found is--first of 
all, I support that, right? I am a big supporter of research. 
One thing I found is, if I said, ``Hey, tell me why what you 
are doing should continue to get funding from the National 
Science Foundation.'' Just a simple question, right? I found 
probably 90 percent of the people that I spoke to couldn't, in 
a really tight way, explain that. And for me, they can explain 
it in complex way. And I am like, ``Oh, yes. I get it.''
    But people like me have to explain this to 700,000 people 
that we represent in a way that if we are going to justify 
Federal dollars and taxpayer dollars, we have to be able to 
give a so-called elevator speech and say--and one example, I 
think this is 4 or 5 years ago that was kind of in the press 
was about a funded researcher--and this is not a criticism--
that was having seniors play video games. And so it got in the 
press, and people said, ``Well, why would you fund that?''
    Well, as it turns out, it was Alzheimer's research. You see 
what I am saying? And very valid, very important research. But 
to try to explain that, when it is written in a line, 
government funds video game; having people be better video game 
players doesn't play very well, and so people like me have a 
hard time explaining that.
    So I guess what I am getting at is--and I guess this will 
be primarily for the people from the universities--is what is 
your pitch for more funding for quantum computing? That is 
something, you have already explained it to me, and I get it. 
But if we are going to explain it to the broader Members of 
Congress and our constituents, how do we explain that, why we 
should do that?
    Does that make sense?
    Mr. Monroe. Yes, it does. Thank you for the question, 
Congressman.
    Yes. I did speak at length about these very targeted type 
hubs. And it should be sort of self-evident what these are 
about. They are developing technology. They are more technology 
centers.
    But there must be an undercurrent of foundational research, 
and this is something the National Science Foundation, they are 
a very special agency in that regard. Fundamental research is 
very inefficient, and we can never tell what is around the 
corner. And you can never predict what is going to hit and 
what----
    Mr. Bucshon. Yes. You don't know what you don't know, 
right?
    Mr. Monroe. Yes. That is right.
    And as the Science Foundation takes all-comers and they 
will have to play an important role in any national quantum 
initiative in the future, because there may be quantum 
technologies that don't exist now. And maybe in 10 years, due 
to some surprise and some weirdo material, we see that, oh, 
they behave as wonderful qubits.
    So, again, it is too bad that it is inefficient, but the 
home runs are far reaching, and this field will probably rely 
on those in the coming decades.
    Mr. Bucshon. Dr. Franklin.
    Ms. Franklin. Yes. It depends on how long you are in the 
elevator. I think the pitch for quantum computers starts with 
the killer apps of drug design for Alzheimer's, right? It is 
projected that 40 percent of the Medicaid budget is going to go 
toward Alzheimer's by 2040.
    So, these are real problems. And if we could model the 
molecules and figure out exactly how nitrogen gets fixed and 
put into fertilizer, we could have much lower energy, food 
production. And so these are big deals, right? And those are 
things that can't be done with classical computing.
    Then the next step is you have to tie the researchers to 
those problems. And that is what sometimes researchers aren't 
good at conveying. But that is why I do think that the calls--
we are at the cusp of commercialization, and it might be an 
appropriate time for even the NSF funding to be looking at the 
broader impacts more. So our group is making tools that 
everyone can use, and so that is something that we can hang on 
to, right?
    Mr. Bucshon. OK. The other thing I am interested in is 
technology transfer, obviously, because that is, as you know, a 
huge problem, not only in this area but across the research 
fields. What percentage of research goes, that is probably 
potentially commercially useful. It just goes into a black 
hole.
    And I know I am short on time, but maybe, Mr. Brett, you 
can comment, how we can do better on technology transfer 
because it is a pretty big problem, really.
    Mr. Brett. Thank you, Congressman.
    And we agree. As a small business that is looking to 
commercialize some of these innovations, how do we get access 
to some of the great work that is being done at the 
universities and to incorporate that?
    Mr. Bucshon. Because it is proprietary, right, sometimes? 
That is some of the problem maybe, right? People are willing--
if they put the research out there, they are worried somebody 
will steal it, so to speak, right?
    Mr. Brett. An approach that has been particularly 
successful for us is being able to partner with universities on 
research grants and so for--as an R&D business to also 
participate in the collaboration of that research and 
contribute to the science and the publication around that and 
share some of that intellectual property on a joint project 
together. And I think that that cross between the commercial 
sector and the research sector working together on funded 
proposals will enable a lot of that technology transfer.
    Mr. Bucshon. OK. My time is up.
    I yield back.
    Mr. Latta. Well, the gentleman yields back.
    And I first want to thank our panel for being here today. 
One of the great things about serving on this committee and 
because we do have such wide jurisdiction, I always say it is 
like looking over the horizon 5 to 10 years, that we hear it 
here first. And we want to make sure that our nation is on that 
cutting edge.
    And I am going to say something about some of our folks 
that were asking questions. They were a little bit on the 
modest side. I have a former Air Force pilot, a West Point 
grad, an engineer, and cardiothoracic surgeon over here. So 
they are not limited in knowledge.
    But what you gave us today was very, very informative 
because, again, we have to make sure that, as we go forward as 
a committee, that we are making the right decisions as we go 
on.
    And the gentlelady also would like to make a comment too. 
So I just want to thank you all. But I will finish up the 
ending, but I will let the gentlelady right now.
    Ms. Schakowksy. Thank you.
    China is building a $10 billion quantum lab right now. And 
they expect to be finished by 2020. And the EU is investing 
about $2 billion in advanced quantum technology. So I think one 
of the answers in terms of why we should be serious about 
making investments may be decryption is--and encryption is--
some decades away. But from a national security perspective, I 
think that there are a lot of reasons that we should take this 
seriously and make the investments. And, of course, all the 
practical things about agriculture and pharmaceuticals, et 
cetera, is very, very important, disease cures.
    But it seems to me that, despite maybe some skepticism, 
there is enough evidence right now that really ought to be an 
important priority. So I just want to thank you very much. You 
really did enlighten me.
    Thank you.
    Mr. Latta. Thank you. The gentlelady yields back.
    And seeing that we have no further members that are going 
to be asking questions today, pursuant to committee rules, I 
remind members that they have 10 business days to submit 
additional questions for the record. And I ask that witnesses 
submit their responses within 10 business days upon receipt of 
questions.
    And, without objection, the subcommittee will stand 
adjourned.
    Thank you very much for attending today.
    [Whereupon, at 10:34 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and thank you to our witnesses for appearing 
before the subcommittee today to discuss quantum computing and 
your work in the field. Part of our job at the Energy and 
Commerce Committee is to explore ideas and issues that have the 
potential to radically alter the way Americans work and live.
    Our Disrupter Series allows us to spotlight the emerging 
technologies that might one day fundamentally change the status 
quo. Quantum computing is just one such innovation that is 
still on the cutting edge of development.
    Quantum computers could one day revolutionize materials 
simulation, data analysis, medicine, machine learning, 
communications, and countless other fields. At the same time, 
challenges remain to the development of quantum computers 
because of their complex and unique operational needs.
    Nevertheless, the race is on and the stakes are high. The 
U.S. is locked in competition with China, Russia, and Europe to 
develop a practical and commercially available quantum 
computer.
    Research into this promising technology is happening across 
the country. America's universities are leading the way, with 
advanced research taking place at dozens of institutions 
nationwide.
    One such effort is at my alma mater, the University of 
Oregon, where Nobel-prize winning physicist David Wineland and 
other members of the physics department are wrestling with this 
complex project. Just last month it was announced that 
researchers from U of O, along with those from Duke, UC 
Berkley, MIT, Johns Hopkins, and others, have received funding 
from the U.S. Army Reserve Office to help develop quantum 
technologies. \1\
---------------------------------------------------------------------------
    \1\ https://edgylabs.com/lsu-receives-federal-grant-to-develop-
quantum-technologies.
---------------------------------------------------------------------------
    The mind-bending ideas inherent to the physics of quantum 
computing are difficult to grasp.
    Particles that exist in multiple states simultaneously--
light and matter existing as both particle and wave; entangled 
atoms that can share their physical connection even when 
separated across the universe --these are complicated topics. 
As the great Danish physicist Niels Bohr has been quoted as 
saying, ``Anyone who is not shocked by quantum theory has not 
understood it.''
    This makes it all the more remarkable that efforts to 
harness these principles for widespread use are well underway. 
I look forward to hearing from our witnesses about how far we 
have come in developing a practical quantum computer, and how 
far we have yet to go.
    The experts before us today will help the committee gain a 
better understanding of the complicated physics that underlie 
these efforts, and how important it is that America remains at 
the forefront of this innovation.
    The entrepreneurial spirit of the United States has no 
equal. Here at the Energy and Commerce Committee, it is our 
goal to support U.S. innovation and the jobs and economic 
growth produced as a result. Every day, American innovators 
accomplish things that were previously thought unimaginable.
    I thank the witnesses for your time today, and the 
important work you are doing.
    Mr. Chairman, I yield back the balance of my time.
                              ----------                              


             Prepared statement of Hon. Frank Pallone, Jr.

    I do not pretend to understand some of the concepts at the 
core of quantum computing. It is reassuring to me that even 
Einstein struggled with these ideas.
    Fortunately, I do not need to be an expert to understand 
that quantum computers may someday be able to perform 
calculations far beyond the capacity of even the fastest 
supercomputers. I also appreciate that these computers have 
great potential to solve many now- unsolvable real world 
problems.
    The development of life-saving drugs is just one example. 
Today, new drug development takes years, produces many false 
leads, and costs billions of dollars. A quantum computer could 
be used to predict how molecules, proteins, and chemicals 
interact with each other and with human cells. The result: 
safer more effective drugs, for treating Alzheimer's, cancer, 
or opioid addiction, get to market sooner and at more 
affordable prices.
    The technology has many other promising applications for 
agriculture, climate study, financial analysis, supply chain 
management, traffic control, and more.
    At the same time, quantum computing could open a Pandora's 
Box for security, rendering all modern encryption obsolete. In 
theory, a quantum computer could someday crack codes in mere 
seconds that would take a traditional computer thousands of 
years to decipher. That milestone would completely change the 
global balance of power.
    I am looking forward to learning more from our panelists 
about just how theoretical these applications are, and how long 
it will take for them to become a reality. Despite dramatic 
progress in the past two or three years, there are still major 
hurdles to overcome before fully functional quantum computers 
are solving real-world problems.
    We may not know with certainty when quantum computing will 
be a reality. We may not be able to predict all of its 
potential uses. We can, however, identify and address current 
obstacles to progress. Two clear obstacles are funding and 
workforce training.
    The federal government must support quantum computing 
research as well as basic scientific research. And those 
dollars must be continuous and predictable.
    We also must be mindful that other countries are investing 
heavily in quantum computing and we must stay globally 
competitive. China, for instance, is building a 10 billion-
dollar national lab by 2020, and the European Union plans to 
invest two billion euros over the next 10 years.
    People are just as essential as dollars, but right now 
there is a profound gap in education and training. The field 
needs more computer scientists, mathematicians, and engineers 
with a solid grasp of quantum mechanics. Undergraduate and 
graduate programs that combine these disciplines, however, are 
rare. And students of all ages must be exposed to the 
principles of quantum computing from an early age all the way 
through graduate programs. We are fortunate to have Professor 
Diana Franklin here today to speak to the education and 
training gaps. Mr. Chairman, I look forward to hearing from her 
and all of our witnesses.
                              ----------                              


                                 [all]
</pre></body></html>
